No. 21-351
IN THE

Supreme Court of the United States
COURTNEY WILD,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Felicia H. Ellsworth, a member of
the bar of this Court, certify that the accompanying Brief for ECPAT-USA as Amicus
Curiae in Support of Petitioner contains 5,979 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
Executed on October 4, 2021.

FELICIA H. ELLSWORTH
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
felicia.ellsworth@wilmerhale.com

